No.

IN THE
SUPREME COURT OF THE UNITED STATES

RtCKV

AMS

- PETITIONER

(Your Name)
VS.
STATE PF Ft-OKtbA

- RESPONDENT(S)

PROOF OF SERVICE
I?

R.icfcy u3fl/<ams

____ , do swear or declare that on this date,
, as required by the Supreme Court Rule 29 I have
served the enclosed Motion FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or the party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
, 20

dPFtae. oF-Me A-f$~orney
Ft.

tfStS KLF/Ajt-er hr. f

£7oorf

343X

I DECLARE under penalty of perjury that the foregoing is true and correct
to the best of my knowledge.
Executed on

B - (0

20 ZO.

I

(Signature)
13

